No. 20-1223
In the Supreme Court of the United States
__________________
JOHNSON & JOHNSON AND JOHNSON & JOHNSON
CONSUMER, INC.,
Petitioners,
v.
GAIL L. INGHAM, ET AL.,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
Missouri Court of Appeals for the Eastern District

__________________
BRIEF OF AMICI CURIAE ABUBAKAR ATIQ
DURRANI, M.D., AND CENTER FOR
ADVANCED SPINE TECHNOLOGIES, INC. IN
SUPPORT OF PETITIONERS
__________________
PHILIP D. WILLIAMSON
Counsel of Record
RUSSELL S. SAYRE
AARON M. HERZIG
TAFT STETTINIUS & HOLLISTER LLP
425 Walnut Street, Suite 1800
Cincinnati, OH 45202
(513) 381-2838
pwilliamson@taftlaw.com
sayre@taftlaw.com
aherzig@taftlaw.com
Counsel for Amici Curiae
April 5, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Amici write in support of the first question
presented in the petition: Whether a court must assess
if consolidating multiple plaintiffs for a single trial
violates due process, or whether it can presume that
jury instructions always cure both jury confusion and
prejudice to the defendant.

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
STATEMENT OF AMICI CURIAE. . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

The Court should grant certiorari to settle
the boundaries of consolidation . . . . . . . . . . . 6
A. Group trials are not unique to rogue state
court jurisdictions. . . . . . . . . . . . . . . . . . . . 6
B. Trial courts may use group trials to clear
the civil litigation backlog created by the
Covid-19 pandemic. . . . . . . . . . . . . . . . . . . 8
C. Litigants cannot afford for the Court to
deny certiorari now and wait for a future
term. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

II.

The Court should state that Due Process
requires separate trials for separate actions
except where it would be unjust to try them
separately. . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

III.

The lower courts’ approach makes it
impossible for a defendant to show it was
prejudiced by a group trial, defying the
common sense rules of civil procedure . . . . . 13

iii
A. The lower courts effectively held that a
defendant cannot rely on the type or
volume of trial evidence to show prejudice
from a group trial . . . . . . . . . . . . . . . . . . . 14
B. The lower courts effectively held that a
defendant cannot rely on the trial verdict
to show prejudice from a group trial . . . . 17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iv
TABLE OF AUTHORITIES
CASES
Atwood, et al. v. UC Health, et al.,
S.D. Ohio No. 1:16-cv-00593
(S.D. Ohio Mar. 31, 2018) . . . . . . . . . . . . . . passim
Atwood v. UC Health,
No. 1:16-cv-00593 (S.D. Ohio Sept. 7 and
Oct. 9, 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Atwood v. UC Health,
No. 20-3052 (6th Cir. June 23, 2020) . . . . . . . . . 10
Densler v. Durrani,
Orders dated September 3, 2020, and December
7, 2020, Hamilton County, Ohio,
Common Pleas No. A 1706561 . . . . . . . . . . . . . . . 9
Kranbuhl-McKee v. Durrani,
12th Dist. Butler No. CA2015-11-191,
2016 WL 4179783 (Ohio App. Aug. 8, 2016) . . . . 6
Martin v. Durrani,
69 N.E.3d 1139 (Ohio App. 2016). . . . . . . . . . . . . 6
Marshall v. Durrani, et al.,
12th Dist. Butler No. CA2015-07-130
(Ohio App. Jan. 12, 2016) . . . . . . . . . . . . . . . . . . . 6
Pena-Rodriguez v. Colorado,
137 S. Ct. 855, 197 L. Ed. 2d 107 (2017) . . . . . . 15
Sand v. Durrani,
Hamilton County Common Pleas No. A 1506694
........................................ 7

v
Shell v. Durrani,
12th Dist. Butler No. CA2014-11-232,
2015 WL 5786897 (Ohio App. Oct. 5, 2015). . . . . 6
State ex rel. Durrani v. Ruehlman,
147 Ohio St.3d 478, 2016-Ohio-7740,
67 N.E.3d 769 (Ohio) . . . . . . . . . . . . . . . . . . . . . . 7
RULES
Fed. R. Civ. P. 19(a) . . . . . . . . . . . . . . . . . . . . . . . . . 12
Fed. R. Civ. P. 20(a) . . . . . . . . . . . . . . . . . . . . . . . . . 12
Fed. R. Civ. P. 23 . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Fed. R. Civ. P. 23(f) . . . . . . . . . . . . . . . . . . . . . . . . . 10
Fed. R. Civ. P. 42 . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Fed. R. Evid. 404(b) . . . . . . . . . . . . . . . . . . . . . . . . . 11
Fed. R. Evid. 606(b) . . . . . . . . . . . . . . . . . . . . . . . . . 15
Ohio Civ. R. 19(A) . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Ohio Civ. R. 20(A) . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Ohio Civ. R. 23 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Ohio Civ. R. 42 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Ohio R. Evid. 606(B) . . . . . . . . . . . . . . . . . . . . . . . . 15
OTHER AUTHORITIES
1 CV Ohio Jury Instructions 305.05 . . . . . . . . . . . . 16
Eighth Cir. Pattern Civil Jury Instruction 1.03 . . . . 15
Sixth Cir. Pattern Jury Instruction 1.05(1) . . . . . . 15

1
STATEMENT OF AMICI CURIAE1
Amici are a spine surgeon, Abubakar Atiq Durrani,
M.D., and his former medical practice, the Center for
Advanced Spine Technologies, Inc. (CAST). They are
defendants in a number of medical malpractice actions
in both federal and state court in Ohio. In federal court,
they have been subjected to two group trials—despite
the fact that the individual plaintiffs allege unique
injuries—stemming from equally unique surgeries—
and claim different damages based on a variety of
theories of recovery. In state court, plaintiffs have
spent seven years trying to pressure trial judges into
scheduling—in plaintiffs’ words—“massive group
trials” of hundreds of plaintiffs before a single jury. A
state court is now planning to conduct group trials to
clear the docket backlog created by the Covid-19
pandemic. Dr. Durrani and CAST therefore urge the
Court to grant a writ of certiorari on Petitioners’ first
question and set clear boundaries on group trials.
SUMMARY OF ARGUMENT
Dr. Durrani and CAST call the Court’s attention to
three reasons why it should grant Johnson & Johnson’s
petition. First, group trials are not limited to state
court dockets or products liability cases targeting
multi-national corporations. Petitioners rightly warn
that “The Court of Appeals’ logic would permit

1

No counsel for any party authored this brief in whole or in part,
nor did any counsel or party make any monetary contribution
intended to fund the preparation or submission of this brief. All
parties’ counsel of record received timely notice of the intended
filing of this brief, and all consented to its filing.

2
consolidation of dozens or hundreds of plaintiffs with
radically different medical conditions and claims
arising under dozens of States’ laws, so long as the jury
was instructed to consider each case individually.” That
is exactly what has already happened in the litigation
against amici in federal court (and what the plaintiffs
continue to request in state court).
Second, the Court should be aware that trial courts
are scheduling group trials in order to clear the civil
litigation backlog created by the Covid-19 pandemic.
The Court must act now to set the Due Process
boundaries on those trials before the issue becomes
prevalent across the country.
Third, the analysis of the court below (and in other
group trial cases) creates an essentially unrebuttable
presumption that group trials are not prejudicial. Both
the court below and the federal trial court in the
litigation involving amici2 concluded that plaintiffs
could join their cases for trial if they sued the same
defendant and alleged similar (but distinct) injuries. As
Petitioners point out, that argument has no logical
stopping point; there is nothing that would prevent 20
or 500 plaintiffs from consolidating their slip-and-fall
claims against Wal-Mart for a single group trial. After
all, Wal-Mart is the common defendant in each case,
and all of the plaintiffs had suffered a slip and fall. But
surely group trials could never be appropriate under
such circumstances.

2

Atwood, et al. v. UC Health, et al., S.D. Ohio No. 1:16-cv-00593.

3
Defendants targeted by group trials are concerned
that the evidence from each case will bleed into the
others, and that the jury will be unable to treat each
case as a separate and distinct action. It is obviously
unjust to find a defendant liable based (in whole or in
part) on the volume of allegations, or to intentionally
set jurors up to be overwhelmed and confused. The
question is how to prove that is what happened.
A defendant cannot prove juror confusion through
direct evidence, insofar as the Rules of Evidence (state
and federal alike) forbid any direct inquiry into a
juror’s mental process. So defendants are left with two
arguments based on inputs (the volume and variety of
the evidence) and outputs (jury verdicts that show a
lack of individualized attention to the cases). The
courts below cut off both arguments.
The first avenue is an appeal to common sense: a
juror is a person, and we know that there are limits on
how much information a person can process at one
time. But the court below dismissed as “unfounded
speculation” the idea that jurors could be overwhelmed
and confused by listening to evidence from 22 separate
cases at once. However, that is far from “unfounded
speculation.” A reasonable inference is not the same as
speculation. A two-hour lecture on a dry subject is hard
to follow; how much more so a two- or six-week trial?
The Missouri court next announced an unrebuttable
presumption that jurors always understand and follow
the jury instructions. In the Court’s view, the
instructions eliminate any risk of confusions. But it is
hard to see how that is true. Trial courts are generally
not supposed to comment on the evidence at trial,

4
beyond ruling on objections. So one can hardly expect
the jury instructions on the law to help the jurors keep
the facts straight. And in Petitioner’s case, the jury
instructions took up 140 pages of the trial transcript;
the court below believed that 140 pages of detailed
verbal instructions guaranteed that jurors understood
what they were doing; experience suggests precisely
the opposite.
But if jurors are presumed to follow instructions
and not to be overwhelmed by a mountain of evidence,
then defendants have only one other avenue to show
juror confusion: the verdict. In Petitioner’s case, the
jury issued identical awards in 22 cases across 12
states’ laws after just 5 hours of deliberation. That
strongly suggests that the jury did not give the 22
separate actions their due individual attention. But the
court below held that Petitioners could read nothing
into that unusual uniformity after an abbreviated
deliberation.
Defendants fare no better with non-uniform
verdicts. In the Atwood trial involving amici, variations
in the damage awards (under only one state’s laws)
also demonstrated that the jurors gave each case
proper, individualized attention. In other words,
whether the verdicts are the same or different,
Plaintiffs propose (and trial courts hold) that both
outcomes support their argument. If a jury is presumed
to follow instructions (and not be confused) when it
renders uniform verdicts and when it renders varied
verdicts—and, as the court below stated, “[t]he
reasoning behind a jury’s verdict is not open to inquiry
or impeachment for faulty logic”—then a defendant can

5
never prove juror confusion. And thus, a defendant
could never prove prejudice from a group trial.
The court below (and in Atwood) also dismissed
concerns that a group trial can violate Evidence Rule
403. But when a court joins multiple plaintiffs for trial,
it means that as to each plaintiff, the jury will hear
evidence that would be inadmissible in a trial solely on
that plaintiff’s claims. In amici’s case, involving
individual medical malpractice cases, most of the
evidence the jury heard was “other acts” evidence. In a
six-plaintiff trial, five-sixths of the medical malpractice
evidence is unrelated to each plaintiff.3 Due Process
requires that every civil litigant be given a fair trial.
Unfettered use of group trials does the opposite.

3

Neither court contemplated the possibility that the jury awarded
higher damages in a group trial than it would have given to any
individual plaintiff in a single-plaintiff trial. That is, even
assuming that all 22 plaintiffs in Petitioners’ case suffered
identical damages, it does not follow that each plaintiff suffered
$25 million in damages. The jury may have awarded $25 million
per plaintiff in a group trial where it would have contemplated $5
or $10 million in an individual trial.

6
ARGUMENT
I.

The Court should grant certiorari to settle
the boundaries of consolidation.
A. Group trials are not unique to rogue
state court jurisdictions.

Amici urge the Court to accept the first question
presented by Petitioners. Amici write to alert the Court
to the increasing prevalence of group trials. Group trial
proposals are not limited to product liability or
asbestos actions. Nor are they unique to state courts
and the vagaries of state civil procedure.
Dr. Durrani and CAST are defendants in hundreds
of individual medical malpractice cases. Each plaintiff
generally alleges that Dr. Durrani performed an
unnecessary surgery. The only commonalities among
the plaintiffs are their legal theory and the defendants;
otherwise, the plaintiffs have unique injuries, medical
histories, courses of treatment, and post-operative
outcomes.
The first few cases followed the ordinary course and
proceeded to single-plaintiff trials in Butler County,
Ohio. Four of the first five Butler County jury trials
ended in defense verdicts for Dr. Durrani and CAST.4
Disappointed in the Butler County juries, the

4

Martin v. Durrani, 69 N.E.3d 1139 (Ohio App. 2016); KranbuhlMcKee v. Durrani, 12th Dist. Butler No. CA2015-11-191, 2016 WL
4179783 (Ohio App. Aug. 8,. 2016); Marshall v. Durrani, et al.,
12th Dist. Butler No. CA2015-07-130 (Ohio App., Jan. 12, 2016);
Shell v. Durrani, 12th Dist. Butler No. CA2014-11-232, 2015 WL
5786897 (Ohio App. Oct. 5, 2015).

7
remaining plaintiffs set out for nearby Hamilton
County, Ohio, where they found a cooperative trial
judge who assigned all of the Durrani-related cases to
himself and consolidated them for a single “massive
group trial”—which he expected to last sixth months to
a year—in front of a single judge and a single jury. See
Sand v. Durrani, Hamilton County Common Pleas No.
A 1506694, General Order on all Dr. Durrani Hamilton
County Cases. The Ohio Supreme Court vacated the
consolidation order on procedural grounds (finding that
the trial judge did not have jurisdiction to assign the
cases to himself), but did not reach the merits of the
group trial order itself. State ex rel. Durrani v.
Ruehlman, 147 Ohio St.3d 478, 2016-Ohio-7740, 67
N.E.3d 769 (Ohio 2016).
Several of the Durrani-related cases ended up in
federal court in the Southern District of Ohio. There,
the plaintiffs succeeded in their bid for group trials.
The District Court scheduled six plaintiffs for a joint
trial before a single jury, connected by nothing more
than the fact that each alleged that Dr. Durrani
performed an unnecessary surgery. Order Granting in
Part and Denying in Part Motion to Sever, Atwood v.
UC Health, No. 1:16-cv-00593 (S.D. Ohio Mar. 31,
2018), ECF No. 232. That trial ended—predictably—
with more than $5 million awarded to five plaintiffs,
including $2.6 million in punitive damages against a
solo physician and his now-defunct private practice.5

5

The sixth plaintiff’s claims were barred by the statute of
limitations. The evidence related to his time-barred claims was not
relevant to any of the other plaintiffs’ cases, but the jury was
allowed to hear and consider it anyway.

8
The District Court then conducted a trial of two
individual plaintiffs’ cases before a single jury, which
found amici liable in both cases. The District Court
scheduled another two-plaintiff trial under the same
circumstances—the only commonality is the general
theory of the case and the defendants who were sued.
The events in the federal court illustrate with perfect
clarity why group trials tend to influence juries to favor
plaintiffs.
B. Trial courts may use group trials to
clear the civil litigation backlog created
by the Covid-19 pandemic.
The Covid-19 pandemic effectively ended civil trials
across the country more than a year ago. A handful of
jurisdictions have kept to relatively normal schedules,
and other have experimented with trial by
videoconference, but most litigants have simply been in
a holding pattern for more than a year while they wait
for courts to reopen. The Cuyahoga County, Ohio,
Court of Common Pleas (the busiest court of general
jurisdiction in Ohio) suspended jury trials from March
16, 2020 to at least April 26, 2021.6 And the Hamilton
County, Ohio, Court of Common Pleas (Ohio’s thirdbusiest court) suspended jury trials from March 13,

6

The court temporarily permitted civil trials between September
17 and November 18, 2020. However, the court’s order required
scheduling a trial three weeks in advance, meaning that as a
practical matter, the court permitted civil trials for roughly a
week.

9
2020 to March 8, 2021.7 The District Court for the
Southern District of Ohio suspended jury trials from
March 12, 2020 to March 31, 2021—and even now, civil
trials are permitted only if the court determines that it
is “absolutely necessary that the matter go forward as
scheduled.”8
The moratoria on civil trials created an immense
backlog. And in the Durrani-related litigation in the
Hamilton County, Ohio, Court of Common Pleas, the
presiding judge has proposed group trials to help clear
the docket—and directed the parties to propose
groupings. Orders Regarding Trial Schedule, Densler v.
Durrani No. A 1706561(Hamilton County Common
Pleas Sept. 3, 2020 and Dec. 7, 2020)..
C. Litigants cannot afford for the Court to
deny certiorari now and wait for a
future term.
If the Court delays addressing this issue even one
more term, it will be too late to correct the unfair
prejudice caused by group trials—especially when they
impact smaller corporate defendants or individuals like
Dr. Durrani and CAST. The Court cannot wait until a
Covid-induced group trial works its way up the
appellate system. To begin with, scheduling a group
trial itself tends to force defendants into

7

The court temporarily resumed trials between August 3 and
October 23, 2020; it is not clear how many civil trials the court
held—if any—during that brief window.
8

The court temporarily permitted jury trials between June 22 and
July 23, 2020.

10
settlement—especially where there is little chance of
meaningful appellate review after the trial goes badly.
Indeed, two of Dr. Durrani’s co-defendants (hospitals
where he operated) decided to settle during the Atwood
group trial.9
But suppose a defendant resists the pressure to
settle and preserves the group trial challenge for
appellate review. That would require a defendant to
incur the often enormous expense of a trial (and posttrial motions), then maintain an appeal through one or
two more layers of the judiciary before it presents a
petition for certiorari to the Court. The reward for a
successful appeal at any stage is just a second
(expensive) trial.
Candidly, few litigants have the resources for such
an undertaking—virtually no small business or
individual could do it. Even if another large corporate
petitioner returns to the Court in two or three years, it
will be far too late for small businesses and individual
defendants who cannot afford to keep litigation alive
long enough to await this Court’s decision.10 And one
wonders whether even comparatively well-heeled
9

In the most common multi-plaintiff scenario, class actions, trials
are, and settlement is so routine that we have developed separate
rules for reviewing settlements and permitting interlocutory
appeals. E.g., Fed. R. Civ. P. 23(f).
10

The jury reached a verdict in the six-plaintiff Atwood trial on
October 12, 2018. That verdict is not yet final and appealable.
Order Dismissing Appeals, Atwood v. UC Health, No. 20-3052 (6th
Cir. June 23, 2020), ECF No. 31. It could be another year or more
before Dr. Durrani and CAST can appeal the District Court’s use
of group trials in those cases.

11
litigants would bother, if the prospect of review
appears remote and the reward is another trial. The
Court should therefore take the opportunity now to
articulate the boundaries around group trials before
the trickle becomes a deluge.
II.

The Court should state that Due Process
requires separate trials for separate
actions except where it would be unjust to
try them separately.

The Court should set the minimum Due Process
requirements for a group trial. The Court should begin
with the common sense principle embodied in the state
and federal rules of civil procedure: Due Process
requires separate trials for separate actions, except
where it would unjust to do so.
Both state and federal rules of civil procedure
militate against joint or consolidated trials, because we
rightly presume that joining two unrelated actions
would be unduly prejudicial to the defendant. For a
similar reason, state and federal rules of evidence tend
to exclude evidence of “other acts” when used to prove
a person’s character and that the person acted in
accordance with that character. Fed. R. Evid. 404(b).
The rules of civil procedure and evidence reflect the
common sense understanding that a mountain of
accusations—even if weak or unsubstantiated on their
own—provokes a “where there’s smoke, there’s fire”
response. A defendant can be convicted (in the criminal
context) or found liable (in civil cases) by the sheer
volume of allegations, even if none of the individual
cases have merit when considered alone.

12
State and federal rules of civil procedure limit
consolidation to three narrow circumstances. First,
Rule 19 commands joinder where the parties must be
joined in order to fully resolve a dispute. Fed. R. Civ. P.
19(a); Ohio Civ. R. 19(A).
Second, Rule 20 permits trials where plaintiffs
assert a joint right to relief, or where plaintiffs’ claims
arise from the same occurrence or course of conduct,
and the cases have common questions of law or fact.
Fed. R. Civ. P. 20(a); Ohio Civ. R. 20(A). A car accident
is the paradigmatic example of a Rule 20 case: If a
drunk driver collides with a car carrying three
passengers, the passengers could file a joint action
because it would not make sense to adjudicate them
separately; the drunk driver could not be reckless as to
one passenger but not the others.
Third, Rule 23 permits a class action where the
class shares common questions of law or fact and the
class meets one of the Rule 23(b) requirements: The
common questions are so common that different
outcomes in different individual cases would be
logically or legally incompatible (23(B)(1)(A)), the
outcome of one case will, as a practical matter,
determine the others (23(b)(1)(B)), the defendant’s
conduct can be (or should be) enjoined as to the class as
a whole (23(b)(2)), or the common questions
predominate over individual questions and class
treatment is the superior means for “fairly and
efficiently” resolving the litigation (23(b)(3)). Fed. R.
Civ. P. 23; Ohio Civ. R. 23.

13
Rules 19, 20, and 23 are the only situations where
the Civil Rules contemplate that more than one case
will be tried together.
The rules on joinder codify common sense: separate
actions arising from separate events should receive
separate trials, giving sides get a fair chance to state
their case, untainted by irrelevant outside influences.
Separate actions should be joined for trial only if it
would be unjust to try them separately.11
III.

The lower courts’ approach makes it
impossible for a defendant to show it was
prejudiced by a group trial, defying the
common sense rules of civil procedure.

The decision below—and that of the District Court
in Atwood—reverses the common sense rules. Both
courts allowed joint trials on the most ephemeral of
justifications: the plaintiffs sued the same defendants,
alleging the same type of injury. See Pet. App. 11a-12a.
The trial court in Atwood applied that rule: six medical
malpractice patients with admittedly unique injuries,
“clinical conditions, histories, physical examinations,
[and] prior treatments” could be grouped together for
trial solely because they sued the same defendants,
alleging that Dr. Durrani performed an unnecessary
surgery on each one. Atwood, Docs. 232, 812, S.D. Ohio
No. 1:16-cv-00593.

11

Rule 42 both permits consolidation for trial where cases involve
a common question of law or fact—like joiner in Rule 19—and
permits the court to set claims or issues for separate trials. Fed. R.
Civ. P. 42; Ohio Civ. R. 42. But Rule 42 depends on a proper, just
joinder of issues in the first place.

14
Petitioners are correct: There is no logical stopping
point to the lower courts’ approach. If twenty plaintiffs
with unique histories, injuries, and damages can be
joined for trial because they were treated by the same
physician (at different times, for different injuries),
then any group of plaintiffs could request a joint trial
against a common defendant. Under the lower courts’
logic, every person who allegedly slipped on a puddle of
water in a Wal-Mart could request one group trial--the
are all suing the same defendant (Wal-Mart) for the
same type of claim (a slip-and-fall in the defendant's
stores).12 But one readily understands that such a trial
would be manifestly unjust; Mr. Harlan’s fall in
Kentucky has absolutely nothing to do with Mr. Reed’s
fall in Kentucky or Mr. Chase’s fall in Ohio. Due
Process guarantees a fair trial: a separate trial for a
separate action.
A. The lower courts effectively held that a
defendant cannot rely on the type or
volume of trial evidence to show
prejudice from a group trial.
The court below (and the Durrani plaintiffs)
dismissed as “unfounded speculation” the idea that
jurors could be overwhelmed and confused by the trial
evidence. But it is hardly “speculation” to conclude that
jurors might struggle to take in six weeks of trial
testimony and argument on 22 separate cases involving
12 states’ laws—armed with nothing more than the
notes they could jot down over the course of trial. It is

12

Applying the Missouri court’s logic, they would not even have to
occur in the same store or state.

15
hard to imagine that a case would require a six-week
trial, and yet be so open-and-shut as to merit just five
hours of deliberation. And it is just as hard to imagine
that these concerns are mere speculation.
It is true that a party could never “prove” that the
jurors were overwhelmed; a defendant could not poll
the jurors after to trial to ask if they felt confused.
Even if it could, jurors cannot impeach their own
verdict with post-trial statements. A juror cannot
testify about “effect of anything on that juror’s or
another juror’s vote; or any juror’s mental processes
concerning the verdict or indictment,” other than
“extraneous prejudicial information” or “an outside
influence.” Fed. R. Evid. 606(b) (emphasis added); Ohio
R. Evid. 606(B). See Pena-Rodriguez v. Colorado, 137 S.
Ct. 855, 865, 197 L. Ed. 2d 107 (2017) (noting that all
states have some variation of the “no impeachment”
rule). It is not “unfounded speculation” that jurors
could get confused by and lost in a veritable mountain
of evidence, most of which is unrelated to each
particular plaintiff’s case. That is simply the same
common sense and everyday experience we instruct
jurors to apply in their deliberations.13

13

The Sixth Circuit’s pattern jury instructions direct the jury to
“consider only the evidence in the case” and “use your common
sense in weighing the evidence. Consider the evidence in light of
your everyday experience with people and events.” Sixth Cir.
Pattern Jury Instruction 1.05(1). The Eighth Circuit likewise
provides that jurors may “consider the evidence in light of your
own observations and experiences,” and directs them to “come to
a just verdict based only on the evidence, your common sense, and
the law [given in the jury instructions.]” Eighth Cir. Pattern Civil
Jury Instruction 1.03. And Ohio directs jurors to “use the tests of

16
Consider the Atwood trial. Jurors listened to 11
days of testimony and argument spread out over a
month. Minute Entries, Atwood v. UC Health, No. 1:16cv-00593 (S.D. Ohio Sept. 7 and Oct. 9, 2018), ECF Nos.
703, 749. They heard a day of jury instructions. Id.,
749. The jurors had only their own notes to
reference—no written argument or summary from the
parties to rely upon. Disputed fact questions—unique
to each of the six cases—were front and center. And the
jury used just two days to deliberate on six separate
cases. Id., 751, 754. It is highly likely that the jurors
could be overwhelmed by the volume of evidence and
the different steams of argument they had to track.
Perhaps sensing that the presumption of perfect
juror memory does not stand up to common experience,
the lower courts layered on another effectively
unrebuttable presumption: the presumption of perfect
juror compliance. The lower courts presume that the
jurors followed all of the instructions. Like the
presumption of perfect memory, this presumption also
defies common sense and common experience. In the
case below, the court assumed that because the trial
court read the jury 140 pages of instructions, the jurors
were surely able to follow them. But who among us has
ever retained an 8-hour lecture—much less one where
quite literally every sentence is of critical importance?
It is likely that 140 pages of instructions proved
impossible to retain and follow by even the most
attentive juror.

truthfulness that you use in your daily lives.” 1 CV Ohio Jury
Instructions 305.05.

17
The lower courts added yet another layer of
prejudice by ignoring the fact that in an individual trial
for any one of the plaintiffs, the jury would not hear
evidence related to the other plaintiffs. Evidence Rule
404(b) (or its state analogues) would forbid it. We
generally do not allow civil plaintiffs to try a defendant
by a volume of unrelated allegations; plaintiffs should
not be permitted to make an end run around the rules
of evidence by consolidating unrelated cases for trial.
B. The lower courts effectively held that a
defendant cannot rely on the trial
verdict to show prejudice from a group
trial.
If a defendant cannot rely on the trial evidence to
show that jurors struggled with a group trial, then they
must turn to the verdict. But the lower courts shut that
door as well. In Petitioner’s case, the trial court applied
an unrebuttable presumption that the jury followed
instructions, and forbade any inquiry into how and why
the jury might have fashioned a particular award. So
Petitioners were not allowed to read anything into the
strange fact that 22 cases with admittedly unique
“genetic dispositions, family histories, previous
diagnoses, ages when they developed ovarian cancer,
types of ovarian cancer, and durations and frequencies
of talc use,” analyzed against 12 different states’ laws
somehow yielded 22 identical outcomes.
In Atwood, the court pinched defendants from the
other side. There, the jury returned somewhat varied

18
damage awards to the six plaintiffs.14 And according to
the district court, the variations in the jury verdicts
demonstrated that each plaintiff received
individualized consideration. But if a defendant cannot
show prejudice through a series of identical verdicts or
differentiated verdicts, and “[t]he reasoning behind a
jury’s verdict is not open to inquiry or impeachment for
faulty logic” anyway, then it is practically impossible
for a defendant to show that he was prejudiced by
being subjected to a group trial. Suffice it to say,
neither Due Process nor the rules of civil procedure are
meant to render a trial court’s consolidation decision
utterly unreviewable.
CONCLUSION
Jurors are instructed to weigh the evidence against
common sense and their everyday experiences. The
Court should do the same: group trials of unrelated
actions can be unduly prejudicial to defendants. The
Court should grant the writ of certiorari and clearly
explain the Due Process limits of group trials.

14

Including finding that one plaintiff’s claims were barred by the
statute of limitations.

19
Respectfully submitted,
PHILIP D. WILLIAMSON
Counsel of Record
RUSSELL S. SAYRE
AARON M. HERZIG
TAFT STETTINIUS & HOLLISTER LLP
425 Walnut Street, Suite 1800
Cincinnati, Ohio 45202
(513) 381-2838
pwilliamson@taftlaw.com
sayre@taftlaw.com
aherzig@taftlaw.com
Counsel for Amici Curiae

